APPENDIX

Order Granting in Part Motion for Relief Pursuant to First Step Act
United States v. Mickey Pubien, No. 06-60350-CR-COHN
(April 9, 2019)………………………………………….....………………………………… A-1
Order Denying Defendant's Second Motion for Reconsideration
United States v. Mickey Pubien, No. 06-60350-CR-COHN
(May 23, 2019)………………………………………………………………………………A-2
Decision of the Eleventh Circuit Court of Appeals,
United States v. Mickey Pubien, 805 F.App'x. 727 (11th Cir. 2020)….….. …A-3
Order on Petition(s) for Rehearing and Petition(s) for Rehearing En Banc,
United States v. Mickey Pubien, No. 19-12078-EE
(June 11, 2020) ............................................................................................ A-4
Judgment in a Criminal Case
United States v. Mickey Pubien , No. 06-60350-CR-JIC-3
(October 26, 2007) ....................................................................................... A-5

Case 0:06-cr-60350-JIC Document 879 Entered on FLSD Docket 04/09/2019 Page 1 of 5

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 06-60350-CR-COHN
UNITED STATES OF AMERICA,
v.
MICKEY PUBIEN,
Defendant.
/
ORDER GRANTING IN PART MOTION FOR RELIEF PURSUANT TO FIRST STEP
ACT
THIS CAUSE came before the Court on Defendant Mickey Pubien’s pro se
Motion for Relief Pursuant to Section 404 of the First Step Act (“Motion”) [DE 862]. The
Court has considered the Motion, the Government’s Response [DE 871], Defendant’s
pro se Reply [DE 877], Defendant’s counsel’s Memorandum in Support of Defendant’s
pro se Motion [DE 878], and the record in this case, and is otherwise advised in the
premises.
In August 2007, Defendant was convicted of six drug offenses: conspiracy with
intent to distribute at least 5 kilograms of cocaine (Count I), conspiracy with intent to
distribute at least 50 grams of cocaine base (Count III), and four counts of distributing
and possessing with intent to distribute 500 grams or more of cocaine (Counts V, XIX,
XXII, and XXV). DE 399. Three prior felony drug convictions were used pursuant to 21
U.S.C. § 851 to enhance Defendant’s statutory minimum sentences as to Counts I & III
such that his statutory sentencing range for those counts was a mandatory term of life
imprisonment. The statutory range for the other four counts was a minimum term of ten
years imprisonment and a maximum term of life. Based on a total offense level of 38

Case 0:06-cr-60350-JIC Document 879 Entered on FLSD Docket 04/09/2019 Page 2 of 5

and a criminal history category of III, Defendant’s guideline imprisonment range was
292 to 365 months. However, pursuant to U.S.S.G. § 5G1.1(b), Defendant’s guideline
range was increased to life because the statutory minimum sentence exceeded the
guideline range. On October 30, 2007, the Court sentenced Defendant to concurrent
terms of life imprisonment on all counts. DE 502. Defendant now moves for a reduction
of his sentence pursuant to the First Step Act of 2018. DE 862.
Section 404 of the First Step Act retroactively applies portions of the Fair
Sentencing Act that lowered the threshold quantities triggering different statutory
penalties for certain offenses involving cocaine base (crack cocaine). Specifically, the
First Step Act provides that “[a] court that imposed a sentence for a covered offense
may, on motion of the defendant . . . impose a reduced sentence as if sections 2 and 3
of the Fair Sentencing Act of 2010 . . . were in effect at the time the covered offense
was committed.” Pub. L. 115-391. A “covered offense” is defined as “a violation of a
Federal criminal statute, the statutory penalties for which were modified by section 2 or
3 of the Fair Sentencing Act of 2010 . . . that was committed before August 3, 2010.” Id.
Here, only Defendant’s cocaine base offense (Count III) is a “covered offense”
under the First Step Act. The Government concedes that “[i]f the defendant were
sentenced today . . . as to Count Three only, he would no longer be facing a mandatory
minimum term of life imprisonment.” DE 871 at 8. But the Government argues that the
Court has no authority to modify the sentences imposed for the remaining counts, and
therefore, the Court should deny Defendant’s Motion because “the overall mandatory
sentence of life imprisonment is not [a]ffected.” Id. at 1. Defendant argues that the
Court should conduct a full resentencing as to all counts, taking into account all

2

Case 0:06-cr-60350-JIC Document 879 Entered on FLSD Docket 04/09/2019 Page 3 of 5

developments in the law since his sentencing. In Defendant’s pro se filings, he argues
that in fact, the sentencing package doctrine requires the Court to conduct a full
resentencing. DE 862 at 5.
The scope of a district court’s authority to modify a sentence under the First Step
Act was recently addressed in United States v. Potts, 2019 WL 1059837 (S.D. Fla. Mar.
6, 2019). There, as here, the defendant argued that he was not only eligible for a
reduced sentence under the Fair Sentencing and First Step Acts on his cocaine base
conviction, but also that he was entitled to a full or plenary resentencing. Id. at *2.
Specifically, the defendant in Potts sought to revisit his designation as a career
offender. Id. Judge Rosenberg held, consistent with other district courts that have
addressed motions under the First Step Act, that 18 U.S.C. § 3582(c) “provides the
procedural vehicle” for modifications of sentences under the First Step Act. Id. Section
3582(c)(1)(B) provides for a sentence modification “only as ‘expressly permitted by
statute.’” Id. Thus, Judge Rosenberg reasoned that because “[n]either the Fair
Sentencing Act nor the First Step Act ‘expressly’ provide for a full or plenary
resentencing or for a reconsideration of original sentencing determinations,” the
defendant was not entitled to a full resentencing. Id. at *3.
The Court agrees with Judge Rosenberg’s reasoning in Potts and adopts its
holding. Defendant is not entitled to a full resentencing. As to Count III only, the Fair
Sentencing and First Step Acts do operate to reduce Defendant’s statutory sentencing
range from a mandatory term of life imprisonment to a minimum term of ten years

3

Case 0:06-cr-60350-JIC Document 879 Entered on FLSD Docket 04/09/2019 Page 4 of 5

imprisonment and a maximum term of life. All other determinations made at the time of
Defendant’s sentencing, however, must remain unchanged.1
Accordingly, it is thereupon ORDERED AND ADJUDGED as follows:
1.

Defendant Mickey Pubien’s pro se Motion for Relief Pursuant to Section

404 of the First Step Act [DE 862] is GRANTED in part and DENIED in part as set forth
below:
a.

Defendant’s term of incarceration on Count III only is reduced to a

term of 10 years to run concurrently with all other counts.
b.

The Motion is DENIED in all other respects. All other provisions of

the Court’s prior sentence shall remain in full force and effect.
2.

An amended judgment will be entered.

DONE AND ORDERED in Chambers at Fort Lauderdale, Broward County,
Florida, this 9th day of April, 2019.

1 The sentencing package doctrine does not alter this conclusion. As the Eleventh Circuit has
explained:

The sentencing package doctrine is a judicial practice that permits a district court to
resentence a defendant on all counts of conviction where: (1) the defendant was
sentenced on multiple counts, such that the overall sentence is a package of interrelated
sanctions for all of the offenses; (2) one of the defendant's convictions subsequently is
vacated; and (3) the district court needs to “reconstruct the sentence package” so that
that the overall sentence comports with the Guidelines, the 18 U.S.C. § 3553(a) factors,
and the court's opinion of a proper sentence for the remaining convictions.
United States v. Rozier, 685 Fed. Appx. 847, 851 n.1 (11th Cir. 2017) (citing United States v. Fowler, 749
F.3d 1010, 1015-16 (11th Cir. 2014)). Here, because none of Defendant’s convictions have been
vacated, this doctrine is inapplicable. And in any event, it is unnecessary to “reconstruct the sentence
package” because, as the Government correctly notes, the overall mandatory sentence of life
imprisonment is not affected by the reduction of Defendant’s term of incarceration on Count III.

4

Case 0:06-cr-60350-JIC Document 879 Entered on FLSD Docket 04/09/2019 Page 5 of 5

Copies provided to counsel of record via CM/ECF, pro se parties via U.S. mail to
address on file, U.S. Marshals, and Bureau of Prisons

5

Case 0:06-cr-60350-JIC Document 889 Entered on FLSD Docket 05/24/2019 Page 1 of 3

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 06-60350-CR-COHN
UNITED STATES OF AMERICA,
Plaintiff,
v.
MICKEY PUBIEN,
Defendant.
/
ORDER DENYING DEFENDANT’S SECOND MOTION FOR RECONSIDERATION
THIS CAUSE is before the Court on Defendant Mickey Pubien’s Motion for
Reconsideration of the Court’s Order Partially Denying Motion for Reduction of
Sentence Pursuant to the First Step Act of 2018 (“Motion”) [DE 884.] The Court has
considered the Motion and is otherwise advised in the premises.
Defendant again seeks reconsideration of the undersigned’s Order Granting in
Part Motion for Relief Pursuant to First Step Act (“Order”) [DE 879.] In the Order, the
Court reduced Defendant’s term of incarceration on his cocaine base offense (Count III)
but held that Defendant was not entitled to a full resentencing and did not modify the
sentences imposed for the remaining counts. “Though the Federal Rules of Criminal
Procedure do not specifically authorize motions for reconsideration, federal district
courts have substantial discretion in ruling on such motions in the criminal context.”
United States v. Sabooni, 09-20298-CR, 2014 WL 4385446, at *1 (S.D. Fla. Sept. 4,
2014) (citation omitted). In the criminal context, motions for reconsideration “are welltaken when they present one or more of the following: (1) an intervening change in
controlling law; (2) the availability of new evidence; or (3) the need to correct clear error

Case 0:06-cr-60350-JIC Document 889 Entered on FLSD Docket 05/24/2019 Page 2 of 3

or manifest injustice.” [Id.] (citation omitted). Such motions “should not simply rehash
previously litigated issues,” and “must set forth facts or law of a strongly convincing
nature to induce the court to reverse its prior decision.” United States v. Russo, 116337-RSR, 2011 WL 3044844, at *1 (S.D. Fla. July 25, 2011) (citations omitted).
In the instant Motion, Defendant does not argue that there has been an
intervening change in controlling law, present previously unavailable evidence, or show
that reconsideration is necessary to correct a clear error or manifest injustice. Thus, the
Court concludes that Defendant has failed to meet the standard for reconsideration.
Defendant continues to disagree with the Court’s determination that the First Step Act
impacts only his cocaine base offense. But as other courts have noted, if the Court
engaged in the full resentencing requested by Defendant, “applying other laws and
Guidelines that have been changed since [defendant’s] original sentencing, it would
work an injustice to offenders sentenced in the past who did not have a crack cocaine
conviction qualifying for sentence reduction pursuant to the Fair Sentencing Act of
2010.” United States v. Russo, 2019 WL 1277507, at *1 (D. Neb. Mar. 20, 2019).
Accordingly, it is

2

Case 0:06-cr-60350-JIC Document 889 Entered on FLSD Docket 05/24/2019 Page 3 of 3

ORDERED AND ADJUDGED that Defendant Mickey Pubien’s Motion for
Reconsideration of the Court’s Order Partially Denying Motion for Reduction of
Sentence Pursuant to the First Step Act of 2018 [DE 884] is hereby DENIED.
DONE AND ORDERED in Chambers at Fort Lauderdale, Broward County,
Florida, this 23rd day of May, 2019.

Copies provided to counsel of record via CM/ECF
and pro se parties via U.S. mail to address on file

3

USCA11 Case: 19-12078

Date Filed: 02/25/2020

Page: 1 of 9

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-12078
Non-Argument Calendar
________________________
D.C. Docket No. 0:06-cr-60350-JIC-3

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
MICKEY PUBIEN,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(February 25, 2020)
Before NEWSOM, LAGOA and HULL, Circuit Judges.
PER CURIAM:
Mickey Pubien, a federal prisoner now proceeding with counsel, appeals the
district court’s order granting in part and denying in part his pro se motion for

USCA11 Case: 19-12078

Date Filed: 02/25/2020

Page: 2 of 9

relief under the First Step Act of 2018, Pub. L. 115-391, 132 Stat. 5194. On
appeal, Pubien argues that he was entitled to a plenary resentencing under First
Step Act §§ 401 and 404. He also argues that the district court should have
reduced his total sentence under the “sentencing package” doctrine. We are not
persuaded by Pubien’s arguments, and we therefore affirm.
I
In 2006, a federal grand jury indicted Mickey Pubien for his involvement in
an illegal drug distribution scheme. Pubien was charged with conspiracy to
possess with intent to distribute five kilograms or more of cocaine in violation of
21 U.S.C. §§ 841(a)(1) and (b)(1)(A) and § 846 (Count 1); conspiracy to possess
with intent to distribute 50 grams or more of crack cocaine in violation of 21
U.S.C. §§ 841(a)(1) and (b)(1)(A) and § 846 (Count 3); and four counts of
possession with intent to distribute 500 grams or more of cocaine in violation of
§§ 841(a)(1) and (b)(1)(B) (Counts 5, 9, 22, and 25).
After a jury trial, Pubien was convicted on all counts. Pubien’s Presentence
Investigation Report, to which he did not object, set his total offense level at 38
and his criminal history category at III—which typically would have resulted in an
Sentencing Guideline imprisonment range of 292 to 365 months’ imprisonment.
Because Pubien had previously been convicted of three drug felonies, however, the
government filed notice that—under 21 U.S.C. § 841(b)(1)(A)—Pubien faced
2

USCA11 Case: 19-12078

Date Filed: 02/25/2020

Page: 3 of 9

mandatory statutory penalties of life imprisonment without release as to Counts 1
and 3. Pubien’s Guideline imprisonment range was therefore increased to life
imprisonment, pursuant to U.S.S.G. § 5G1.1(b). The district court sentenced
Pubien to concurrent terms of life imprisonment on all counts, a decision we
affirmed on direct appeal. United States v. Pubien, 349 Fed. App’x 473, 478 (11th
Cir. 2009).
In February 2019, Pubien filed a motion for relief under the First Step Act,
seeking a reduction of his sentence. The district court granted Pubien’s motion in
part and denied it in part. The district court held that only one of the convictions
underlying Pubien’s sentence—conspiracy to possess with intent to distribute 50
grams or more of crack cocaine (Count 3)—qualified as a “covered offense” under
the First Step Act. Accordingly, the district court exercised its discretion under the
Act to reduce Pubien’s Count 3 sentence to 10 years, but it left Pubien’s remaining
life sentences unchanged. Pubien filed a motion for reconsideration, which the
district court denied.
II
Pubien makes three arguments on appeal. First, Pubien argues that the
district court erred in holding that First Step Act § 404 does not allow for
resentencing of his powder-cocaine offenses (Counts 1, 5, 9, 22, and 25). Second,
he argues that the district court “ignored” a different provision of the First Step
3

USCA11 Case: 19-12078

Date Filed: 02/25/2020

Page: 4 of 9

Act—§ 401—which, he alleges, also permits resentencing for his powder-cocaine
offenses. Finally, he argues that his sentences are “interdependent” and that,
because he successfully challenged his crack-cocaine sentence (Count 3), he is
entitled to full resentencing on all of his underlying counts under the “sentencing
package” doctrine. We address each argument in turn.
A
First, we consider Pubien’s argument that First Step Act § 404 gives the
district court authority to reduce the life-imprisonment sentences imposed for his
powder-cocaine offenses (Counts 1, 5, 9, 22, and 25).1 Generally, a court “may not
modify a term of imprisonment once it has been imposed.” 18 U.S.C. § 3582(c).
Under one of the limited exceptions to this rule, however, a court “may modify an
imposed term of imprisonment to the extent otherwise expressly permitted by
statute or by Rule 35 of the Federal Rules of Criminal Procedure.” Id.
§ 3582(c)(1)(B); see also United States v. Phillips, 597 F.3d 1190, 1196–97 (11th
Cir. 2010) (“[A]bsent other statutory authority, . . . a district court lacks
jurisdiction to modify a defendant’s original imprisonment sentence except within
seven days as provided by Rule 35(a).”). The question here is whether First Step

1

We review the district court’s interpretation of a statute de novo. United States v. ZunigaArteaga, 681 F.3d 1220, 1223 (11th Cir. 2012).
4

USCA11 Case: 19-12078

Date Filed: 02/25/2020

Page: 5 of 9

Act § 404 provides the district court with the statutory authority necessary to
modify Pubien’s powder-cocaine sentences. We hold that it does not.
To understand the scope of First Step Act § 404, we must first start with two
provisions in a different statute—§§ 2 and 3 of the Fair Sentencing Act of 2010,
Pub. L. No. 111-220, §§ 2–3, 124 Stat. 2372. Sections 2 and 3 of the Fair
Sentencing Act reduced statutory penalties for certain offenses involving crack
cocaine. Specifically, § 2 of the Fair Sentencing Act reduced the disparity between
the quantities of crack cocaine and powder cocaine required to trigger the statutory
penalties prescribed by 21 U.S.C. §§ 841(b)(1) and 960(b). Dorsey v. United
States, 567 U.S. 260, 264 (2012) (stating that the Fair Sentencing Act “reduc[ed]
the crack-to-powder cocaine disparity from 100-to-1 to 18-to-1”). Section 3
eliminated the mandatory minimum sentence for simple possession of crack
cocaine in 21 U.S.C. § 844(a). Dorsey, 567 U.S. at 269. Under the Fair
Sentencing Act, itself, however, §§ 2 and 3 apply only to offenders sentenced after
August 3, 2010—the date the statute took effect. See Dorsey, 567 U.S. at 264.
First Step Act § 404 made §§ 2 and 3 of the Fair Sentencing Act
retroactively applicable. In particular, First Step Act § 404 provides that a district
court is authorized to “impose a reduced sentence as if sections 2 and 3 of the Fair
Sentencing Act of 2010 were in effect at the time the covered offense was
committed.” § 404(b) (citation omitted). And it defines the term “covered
5

USCA11 Case: 19-12078

Date Filed: 02/25/2020

Page: 6 of 9

offense” as “a violation of a Federal criminal statute, the statutory penalties for
which were modified by section 2 or 3 of the Fair Sentencing Act of 2010, that was
committed before August 3, 2010.” § 404(a) (citation omitted).
As the district court held, Pubien’s crack cocaine conviction (Count 3)
qualifies as a “covered offense” under § 404 of the First Step Act. Section 2 of the
Fair Sentencing Act modified the statutory penalties for Pubien’s crack cocaine
offense, and Pubien committed the offense before August 3, 2010. The district
court therefore had the discretion, under First Step Act § 404, to reduce Pubien’s
sentence for that count. The district court was not authorized, however, to reduce
the sentences imposed for any of Pubien’s remaining convictions (Counts 1, 5, 9,
22, and 25), because the sentences imposed for those convictions—all of which
related to powder cocaine—were not modified by section 2 or 3 of the Fair
Sentencing Act. None of those convictions, in other words, are “covered offenses”
under First Step Act § 404. We also note that, even if we somehow read § 404 to
encompass Pubien’s remaining convictions, it would do him little good: § 404 only
permits resentencing “as if sections 2 and 3 of the Fair Sentencing Act of 2010
were in effect at the time the covered offense was committed.” (citation omitted).
And, as we’ve stated, sections 2 and 3 of the Fair Sentencing Act do nothing to
alter the penalties for Pubien’s powder cocaine convictions.

6

USCA11 Case: 19-12078

Date Filed: 02/25/2020

Page: 7 of 9

B
Pubien next argues that First Step Act § 401 entitles him to a reduced
sentence for his powder-cocaine convictions. First Step Act § 401 amended 21
U.S.C. § 841(b)(1)(A) by changing the mandatory penalties it imposed for repeat
offenders, as well as altering the types of offenses that trigger those penalties.
Specifically, while § 841(b)(1)(A) previously stated that a prior conviction for a
“felony drug offense” would trigger mandatory penalties, First Step Act § 401(a)
changed the prior-conviction requirement to a “serious drug felony or serious
violent felony.” First Step Act § 401(a) also changed the mandatory minimum
sentence for defendants who have had two or more such prior convictions, from
life imprisonment to 25 years. Pubien argues that, because of these changes, he is
entitled to a decreased sentence for his powder-cocaine convictions.
We disagree. The First Step Act did not make § 401’s amendments
retroactively applicable to defendants sentenced prior to its enactment. In fact,
contrary to Pubien’s argument, it explicitly makes the amendments not
retroactively applicable to such defendants: it states that the provisions of §401
“shall apply to any offense that was committed before the date of enactment of this
Act, if a sentence for the offense has not been imposed as of such date of
enactment.” § 401(c). Pubien, who was sentenced on October 26, 2007, is
therefore not entitled to a sentence reduction under First Step Act § 401.
7

USCA11 Case: 19-12078

Date Filed: 02/25/2020

Page: 8 of 9

C
Finally, Pubien argues that he is entitled to resentencing for his powder
cocaine convictions under the “sentencing package” doctrine. The sentencing
package doctrine is a judicial practice born of the reality that, “especially in the
guidelines era,” sentencing a defendant on multiple counts is often an “inherently
interrelated, interconnected, and holistic process.” United States v. Fowler, 749
F.3d 1010, 1015 (11th Cir. 2014). Accordingly, under the sentencing package
doctrine, district courts are “free to reconstruct [a defendant’s] sentencing
package” when “one of more of the component counts is vacated”—thereby
allowing the court to “ensure that the overall sentence remains consistent with the
guidelines.” Id.
The sentencing-package doctrine has no place here, however, where the
original sentence imposed was not a package of interconnected sanctions. When
Pubien was originally sentenced, his Count-1 and Count-3 convictions each
independently required the imposition of a life sentence. Although it’s true that the
district court later reduced Pubien’s Count-3-based life sentence under the First
Step Act, that sentence had (and has) no effect on his Count-1-based mandatory
sentence. There is no risk, in other words, that the “district court’s original
sentencing intent may [have] be[en] undermined” by the subsequent Count-3
sentence reduction. Pepper v. United States, 562 U.S. 476, 507 (2011) (quotation
8

USCA11 Case: 19-12078

Date Filed: 02/25/2020

Page: 9 of 9

omitted). Accordingly, no wholesale reconfiguration of Pubien’s sentence is
necessary. See id.
III
Because the First Step Act does not give the district court the authority to
reduce Pubien’s powder-cocaine sentences, and because there is no need to
repackage Pubien’s overall sentence, we affirm the district court’s decision to grant
in part and deny in part Pubien’s motion to modify his sentence.
AFFIRMED.

9

USCA11 Case: 19-12078

Date Filed: 02/25/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

February 25, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-12078-EE
Case Style: USA v. Mickey Pubien
District Court Docket No: 0:06-cr-60350-JIC-3
This Court requires all counsel to file documents electronically using the Electronic Case Files ("ECF")
system, unless exempted for good cause. Enclosed is a copy of the court's decision filed today in this
appeal. Judgment has this day been entered pursuant to FRAP 36. The court's mandate will issue at a later
date in accordance with FRAP 41(b).
The time for filing a petition for rehearing is governed by 11th Cir. R. 40-3, and the time for filing a petition
for rehearing en banc is governed by 11th Cir. R. 35-2. Except as otherwise provided by FRAP 25(a) for
inmate filings, a petition for rehearing or for rehearing en banc is timely only if received in the clerk's office
within the time specified in the rules. Costs are governed by FRAP 39 and 11th Cir.R. 39-1. The timing,
format, and content of a motion for attorney's fees and an objection thereto is governed by 11th Cir. R. 39-2
and 39-3.
Please note that a petition for rehearing en banc must include in the Certificate of Interested Persons a
complete list of all persons and entities listed on all certificates previously filed by any party in the appeal.
See 11th Cir. R. 26.1-1. In addition, a copy of the opinion sought to be reheard must be included in any
petition for rehearing or petition for rehearing en banc. See 11th Cir. R. 35-5(k) and 40-1 .
Counsel appointed under the Criminal Justice Act (CJA) must submit a voucher claiming compensation for
time spent on the appeal no later than 60 days after either issuance of mandate or filing with the U.S. Supreme
Court of a petition for writ of certiorari (whichever is later) via the eVoucher system. Please contact the CJA
Team at (404) 335-6167 or cja_evoucher@ca11.uscourts.gov for questions regarding CJA vouchers or the
eVoucher system.
For questions concerning the issuance of the decision of this court, please call the number referenced in the
signature block below. For all other questions, please call Elora Jackson, EE at (404) 335-6173.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Djuanna H. Clark
Phone #: 404-335-6151
OPIN-1 Ntc of Issuance of Opinion

USCA11 Case: 19-12078

Date Filed: 06/11/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

June 11, 2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 19-12078-EE
Case Style: USA v. Mickey Pubien
District Court Docket No: 0:06-cr-60350-JIC-3
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Elora Jackson, EE/lt
Phone #: (404) 335-6173
REHG-1 Ltr Order Petition Rehearing

USCA11 Case: 19-12078

Date Filed: 06/11/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-12078-EE
________________________
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
MICKEY PUBIEN,
Defendant - Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: NEWSOM, LAGOA and HULL, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

Case 0:06-cr-60350-JIC Document 502 Entered on FLSD Docket 10/31/2007 Page 1 of 7

Case 0:06-cr-60350-JIC Document 502 Entered on FLSD Docket 10/31/2007 Page 2 of 7

Case 0:06-cr-60350-JIC Document 502 Entered on FLSD Docket 10/31/2007 Page 3 of 7

Case 0:06-cr-60350-JIC Document 502 Entered on FLSD Docket 10/31/2007 Page 4 of 7

Case 0:06-cr-60350-JIC Document 502 Entered on FLSD Docket 10/31/2007 Page 5 of 7

Case 0:06-cr-60350-JIC Document 502 Entered on FLSD Docket 10/31/2007 Page 6 of 7

Case 0:06-cr-60350-JIC Document 502 Entered on FLSD Docket 10/31/2007 Page 7 of 7

